August 14, 2008

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Application Control Review of the Time and
         Attendance Collection System (Report Number IS-AR-08-014)

This report presents the results of our self-initiated audit of the Time and Attendance
Collection System (TACS) (Project Number 07RG010IS000). Our objective was to
determine whether TACS had sufficient controls in place to ensure that data and
transactions are valid, authorized, and completely and accurately processed.
Specifically, we reviewed controls surrounding input and approval of time records, user
privileges, user authentication, and data integrity. In addition, we evaluated the
reliability of reporting, specifically the Employee Everything Report. This audit
addresses operational risk associated with TACS. Click here to go to Appendix A for
additional information about this audit.

Conclusion

We determined TACS has sufficient application controls in place to ensure automated
clock rings entered into the application were accurately accepted and processed. Also,
we determined the Employee Everything Report and related interface were operating as
intended and accurately reported transaction results. However, the U. S. Postal Service
has an opportunity to strengthen least privilege controls, access controls, and security
of sensitive information; and to improve Quality Assurance (QA) testing. The scope of
our audit did not include a review of manual controls and supervisory responsibilities
related to clock rings.

Electronic Badge Reader Creation Software and Printer

Employee Social Security numbers (SSN) can be displayed through some TACS
application modules or printed on some TACS reports. The Postal Service took the
initiative to protect employees’ confidential and sensitive information, as directed in
Application Control Review of the Time                                                             IS-AR-08-014
 and Attendance Collection System


policy,1 by using Employee Identification Numbers (EIN) for identification purposes
instead of SSNs. However, management had not updated the Electronic Badge Reader
(EBR) creation software to use these EINs as the primary means of identification.2
xxxxx x xxxxxxxxxxxxx xxxx xxxxxxxxxx (xx) xxxxxx xxx xxx xxxxxxxx xxxxxxxx xxxx
xxxxxx xx xxxxxx xxxxxxxxxx xx xxxxxxxx xxxxxxxxxxxx xxx xxxxxxxxx xxxxxxxxxxx.
Click here to go to Appendix B for our detailed analysis of this topic.

During the course of our audit, the Postal Service took action to begin eliminating the
presentation of sensitive data. A change to the EBR creation software allows for the
sensitive information to be replaced by other data.3

We recommend the Vice President, Information Technology Operations, coordinate with
the Vice President, Controller, to:

    1. Ensure management protects sensitive employee data used in the Electronic
       Badge Reader Program by eliminating the presentation of confidential Social
       Security numbers on computer screens and hardcopy reports by either obscuring
       the data or replacing it with other non-sensitive data identifiers.

Privileged Database Accounts

xxxxxxxxx xxx xxxxxxxx xxxxxxx xxxxxxxx (xxxx) xxxxxxxxx xxx xxx xxxxxxxxxx xxxxxxx
xxxx x xxxxxx xxxxxxx xxxxxxxx4 xx xxxx xxxxxx xx xxxx xxxxxxxxxxx xxxxxxxxx xxx
xxxx xxxxxxx. xxxx xxxxxxxxx xxxxxxx xxxx xxxxxxxx xx xx xxxxxxx xx xx xxxxxxxxxx
xx xxxxxx xxxxxxxx xxxx xxx xxxxxxxx xxxxxxxxxxxxx xxxxx xx xxx xxxxxxxxx. xxxxxxx
xxxxx xxx xxxx xxxxxxx xxx xxxxxxxx xx xxxx xxxxxx xx x xxxxxxxxxx xxxxxxx xxxx xxx
xxxxxxx xxxxxxxxxxxxxx xxx xxxx xxx xxxxxx xxxx xxxxxx xxxxxxx xxxxxxx5 xxxxxxxx
xxxx xxx xxxxxxxxxx xxxxxxxx xxx xxxxxxxx xx xxxxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxx
xxx xxxxxxxx xxxxxxxxxxxx xxx xxxxxxxxx xxxxx xxxxxx xx xx xxxxxxxxxxx x xxx xxx
xxxxxxxx xxxxxxxx xx xxxx xxxxxx

We recommend the Vice President, Information Technology Operations, direct the
Manager, Information Technology Computing Services, to:

    2. Assign privileged system and administration accounts to unique individuals.



1
  Handbook AS-805, Information Security, dated March 2002 (updated with Postal Bulletin revisions through
November 23, 2006), Section 3-5.2.
2
  xxxxxxxx xxxx xxx xxxxxxx xx xxx xxxxxxxx xxxxx xx xxx xxxxx xxx xxxx xx xxx xxxxxxx xxxxx xx xxxxxxxxxxxxxx.
3
  xxxxxx xxxx xxxx xxx xxx xxxxxxx xx xxxxxxx xxxxxxxx xxxxx xx xxxxxxxxxx xx xxxx xxxxxx xxxxxx xx x xxxxxxxx
xxxxxx xxxxxxxxxx xxx xxxxxxxx xxxxx xx xxxxx xxxxxx xxxxxxxxx xxx xxxxxxxxxx xxx. xxx xxx xxxxxx xxxxxx xxx
xxxxxxx xxxxxxxx xxxxx xx xxxxx xx xx xxxxxxxxx xxxx xxxxxx xxx xxx xx xxx xxxxxxxxxx xxxxxxxxxxx xxx xxxxxxxx
xx xxx xxxxx xxxx xxxx xxxxxx xxxx xx xxxxxxxxxxx xx xxxx xxxxxxx xxx xxxxxx xxxx xx xxxxxx xxxx xxxxxxx xxxx
xxxxxxx xx xxxx.
4
  xxxxxxxxx xxx xxxxxxxxxx xxxxxxx xxxxxxxx xx xxxx xxxxxxx xxxxxxxxxxxxx xxxxx x xxxxx.
5
  Handbook AS-805, Information Security, Section 9-5.3.2.

                                                       2
                                            Restricted information
Application Control Review of the Time                                                              IS-AR-08-014
 and Attendance Collection System


    3. Ensure privileged account passwords are not shared and password renewal
       practices comply with Postal Service policy.

Encryption of Sensitive Information

Xxx Xxxxxx Xxxxxxx xxxxxx xxxxxxxxxxxx xxx xxxxxxxxx XXXX xxxx xx xxxxx xxxx
xxxxxxxxxxxxx xxxx. Xxxxxx Xxxxxxx xxxxxx6 xxxxxxxxxx xxxxx xxxxxxxxxx xx xxx
xxxxxxx xxxxx xxx xxxxxxxxx xxxxxxxxxxxxxxx xxxxxxxx xxx xxxxxxxxxxx xxxxxx xxxx
xxx xxxxxxx. xx xxx xxxx xx xxxx xxxxxxxxxxxxxx, xxx xxxxxx xxxxxxx xxx xxx xxx
xxxxxxxxx xxxxxxxxxx xxxxxxxxxx xx xxxxxxx xxx xxxx. xx x xxxxxx, xxxxxxxxxxxx xxx
xxxxxxxxx xxxxxxxxxxx xxx xx xxxx.7 xxxxx xx xx xx xxxxxxxx x xxx xxx xxxxxxxx
xxxxxxxx xx xxxx xxxxx.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Finance Business Systems Portfolio, to:

    4. Encrypt sensitive Time and Attendance Collection System data being stored in
       application files.

Time and Attendance Collection System Testing Environment

The TACS QA testing environment does not mirror the production environment and
personnel cannot completely test all modifications with absolute assurance. Best
practices and Postal Service policy recommend ensuring test environments are
representative of the production operating environment and changes to the production
environment are replicated in the test environment.8 As changes to the production
environment occurred, the Postal Service did not replicate them in the QA testing
environment. A QA testing environment which mirrors production helps ensure changes
will be adequately tested before being introduced into the production environment.
Click here to go to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Finance Business Systems Portfolio, to:

    5. Update the Quality Assurance testing environment to mirror the production
       environment.




6
  Handbook AS-805, Section 9-8.2.
7
  xxxx xxx xxxxx xxxxxxxx xxx xxxxxxxxx xxxxxxxxxxx xxx xxxxxx xx xxxxxxxxx xxx xxxx xxxx xx xxxxxxxxxxx xxxxxx
xxx xxxxxx xxxxxxxxx “xxxxxxx xxxxxxx.” xxxxxxxxx xxxx xxxxxx xx xxxx xxxx xxxxx xxxxxxxxxxx xxx xx xxxxxxx xx
xxx xxxxxx xxxxxxxxx xxxx xx xxxxxxx, xx x xxxxxx xxxxxxxxxxxx xxxx xxxxxx xxx xxxxxxxxxx.
8
  Information Systems Audit and Control Association’s COBIT AI7.4 Test Environment, IT Governance Institute, 2007,
and U.S. Postal Service Development and Operations Security Policy, Section 5, (not dated).

                                                        3
                                             Restricted information
Application Control Review of the Time                                                                 IS-AR-08-014
 and Attendance Collection System


Access to Production Database

Three Postal Service TACS developers had both read-only access to the TACS
databases and unrestricted access privileges at the TACS business application level.
Having both business user and database accounts allows developers to have inherited
(accumulated) rights,9 which put confidential and sensitive data at unnecessary risk.
Postal Service policy10 states that developers must not have access to production
application systems. Management approved developer access to production
application systems, as well as unrestricted read-only access to production databases,
in order to expedite the handling of TACS change requests. Click here to go to
Appendix B for our detailed analysis of this topic.

During the course of our audit, the Postal Service implemented changes to restrict
developers to read-only access to production databases for application support. All
access capabilities granting write, update and delete privileges were removed.
Therefore, we are not making any recommendations to address this issue.

Sensitive Information Available to Users

xxxx xxxxx xxx xxx xxxxxxx xx xxxx x xxxx xx xxxx xx xxxxx xxx xxxx xxxxx xxxx xxxxxx
xxxxxx. Postal Service policy11 states management must protect sensitive information
from unauthorized access and disclosure and restrict access to authorized personnel
with a need to know. xxx xxxxxxx xx xxxx xxxxx xxxx xxxxxxxx xxx xx x xxxxxxxxxxxxx
xxxxxxxxx xxxx xxxx xxxx xxxxxxxx xx xxxx xxxxxx xxx xxxx xxxxxxxxxxx.12 This
resulted in TACS users being able to obtain confidential and sensitive employee
personal information.

During the course of our audit, the Postal Service made appropriate changes ensuring
displayed employee SSNs were protected xx xxxxxxxxx xxxx xx xxx xxxxx xxxx xxxxxx
xx xxx xxx xxxx xxx xxxxxx xxxx Therefore, we are not providing recommendations for
this issue.

Management’s Comments

Management agreed with recommendations 1, 2, 4, and 5 and partially agreed with
recommendation 3. Regarding recommendation 1, management changed the TACS
badge card report to eliminate display of the SSNs. Management also will direct a
xxxxxxxx xxxxxxxxxxxxxx xxxxx xxxxx xxxxxxxx xxxx xxxxxxx xxxx xxxxxx xxxx xxx
xxxxxx xxxxxxx xxxx xxx xxx xx xxxxxxxxx xxxx xx xxxxxxxxx xxx xxxx.

9
  Coupled with their business accounts, which grant read, write, update, and delete privileges, developers can access
databases with these assumed privileges and their actions will not be tracked based on their approved access to the
databases.
10
   Handbook AS-805, Section 8-3, and U.S. Postal Service’s Development and Operations Security Policy, Section 5.
11
   See footnote 1.
12
   When xxxxxxxxxx xxxxxxxxxxxx xxx xxx xxxx xxxxx xxxxxxxx xxxxxxxxxxxx, xxxx xxx xxx xxxxxx xxxx xxxxxx
xxxxxx.

                                                         4
                                              Restricted information
Application Control Review of the Time                                       IS-AR-08-014
 and Attendance Collection System



For recommendation 2, management stated the XXXX team will develop processes to
migrate from using shared privileged accounts to unique individual accounts by January
30, 2009.

Concerning the partial agreement with recommendation 3, management stated it is
xxxxxxxxxxx xxxxxxxxxx xx xxxxx xxxxxxx xxx xxxxx xxx xxxxxxxx xxxxxxxx, xxxxx xxx
xxxxxxxx xx xxxxxx xxx xxxxxxxx xx xxxxx xxxxx xxxx xxx xxxxxxxxxx. However,
management stated they would use a software tool as a compensating control to
monitor use of these accounts and to record an audit trail of activity. Management
agreed with the password renewal compliance and stated that XXXX would implement
the renewal policy on TACS and all other databases. Management will research the
marketplace and provide a recommended solution by December 30, 2008, for a
software tool to manage the change of a large numbers of passwords at a time.

xxxxxxxxx xxxxxxxxxxxxxx x, xxxxxxxxxx xxxxxx xxx xxxxxxxxxx xxxxxxxx xxxxxxx
xxxxxxxxx xxxxxx xx xxxxxxxxxxx xx xxxxxxxxxx xxxxxxxx xxxx xxx xx xxxxxxxxxxx
xxxxxxx xxxxxxxxxx xxx xxxxxxxxxxx xxxxxxxxx, xxx xxxx xxxxxx xxx xxxxxxx xxx
xxxxxxxx xxxxxxxxxxxx. xxxxxxxxxx xxxx xxxxxxx x xxxxx xx xxxxxxx xx xxx xxxxxxxxx
xx xxxxx xx, xxxx xxx, xx xxxxxxxxxx, xxxx xxxxxxxxx xxxxxxxxxx xx xxxxx xx, xxxx.

Finally, for recommendation 5, management stated they are investigating and designing
the TACS test environment architecture as part of an initiative to become compliant with
Sarbanes-Oxley. They will complete this effort by September 30, 2009. Management’s
comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and their corrective actions should
resolve the issues identified in the report.




                                                    5
                                         Restricted information
Application Control Review of the Time                                      IS-AR-08-014
 and Attendance Collection System


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary C. Rippie, Director,
Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
for Revenue and Systems

Attachments

cc: Ross Philo
    Lynn Malcolm
    Harold E. Stark
    Joseph J. Gabris
    Jo Ann E. Mitchell
    Carol A Reich
    David M. Stauffer
    William E. Koetz
    Christine L. Souter
    Kathleen A. Warnaar
    Katherine S. Banks




                                                    6
                                         Restricted information
Application Control Review of the Time                                                                 IS-AR-08-014
 and Attendance Collection System


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

TACS is one of the largest Postal Service web-based applications providing real-time
work hour data to help manage day-to-day operations. TACS accounts for the work
hours of more than 650,000 Postal Service career and non-career employees and
nearly $2 billion in salaries and benefits employees receive each pay period. TACS
ensures all employees are paid by a uniform set of rules at a national level and
eliminates differences in how payroll information is calculated for T&A. Employees’ time
can be entered into TACS in three different ways.

     •   Electronic Badge Reader – Employees swipe their badges at the beginning and
         end of their tours and when leaving for or returning from their designated lunch
         periods, generating a clock ring. Supervisors manually input all employee leave.
         These clock rings are written to the TACS database and are automatically
         accepted by TACS.

     •   Timecards – Employees record their time on a timecard, which may be entered in
         one of two ways: (1) an employee’s supervisor logs on to the TACS application
         and enters timecard data into the Timecard Entry Module, or (2) a supervisor will
         call an 800 telephone number to establish a connection with TACS Voice
         Response13 (TVR) and use a typical telephone numeric touch pad to enter the
         employee’s time into the TACS application.

     •   Auto-Rings – Exempt employees can be established in TACS on auto-rings.
         Under this option, the employee’s schedule is pre-populated in the TACS
         application, requiring only that deviations from their schedule be manually
         entered into the application.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether TACS has sufficient controls in place to ensure
that data and transactions are valid, authorized, and completely and accurately
processed. Specifically, we reviewed controls surrounding input and approval of time
records, user privileges, user authentication, and data integrity. In addition, we
validated the reliability of reporting for the Employee Everything Report.14

We gathered documentation and interviewed Postal Service personnel to identify and
assess existing application controls in the TACS application. We limited our scope to
the actual clock rings as entered into the application. Our audit did not include tests to
determine that the information captured by the clock rings was accurate.
13
  TVR is used at small offices which do not have Internet connection.
14
  Ernst and Young requested that we attest to the reliability of the Employee Everything Report for the purpose of
placing reliance on the accuracy of this report for their audit of the Postal Service’s financial statements.

                                                         7
                                              Restricted information
Application Control Review of the Time                                                                  IS-AR-08-014
 and Attendance Collection System



We tested the input of clock rings into the Clock Ring Editor Module and the Timecard
Entry Module of TACS. xxxxx xxxxx xxxx xxxxxxxxx xxxx xxxxxxxxxxx xxxxxxx xxx xx
xxxxxxx xxxxxxxxxxx xxx xxx x xxxxxx xx xxxxxxxxxx. xxx xxxxxxx, xxx xx xxxxxxx
xxxxxxxxxxx xxxx xxx xxxx xxx xxxxxxxxxx xx xxxx xxxxx xxxxx xxxxxxx xxxx xx xxx.
xxxxx xxxxx xxxx xx xxxxxxx xxxxxxxx xxxx xxx xxxxx xxxx xxxxxx xxxxxx xx xxx
xxxxxxxxxxx xxx xxx xxxx xxxxxxxxx. We created several testing scenarios based on
business rules of the application. We performed some of these scenarios to create
error outcomes, and some to create non-error outcomes. For example, based on
business rules we would expect the application to produce an error if an employee’s
work hours exceeded the scheduled 40 hours per week and no overtime was
authorized. After creating scenarios for both the Clock Ring Editor Module and
Timecard Entry Module, we input the testing scenarios into TACS and analyzed our
results.

We tested the reliability of the computer-generated output presented in the Employee
Everything Report. After obtaining a sample of employees, we ran an Employee
Everything Report for all hours processed and recorded by TACS. We queried the
database and used scripts provided by the TACS development team to obtain the raw
rings entered into the application and written to the database. We performed a line-by-
line analysis of this data to verify that all information input into the application processed
as expected.

We conducted this performance audit from June through November 2007 and March
through August 200815 in accordance with generally accepted government auditing
standards and included such tests of internal controls as we considered necessary
under the circumstances. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. We discussed our observations and conclusions with management officials
on July 15, 2008, and included their comments where appropriate.




15
     We did not work on this audit from December 2007 through February 2008 due to the unavailability of resources.

                                                           8
                                                Restricted information
Application Control Review of the Time                                                        IS-AR-08-014
 and Attendance Collection System


PRIOR AUDIT COVERAGE

                                           Final
                    Report Number         Report       Monetary
   Report Title                            Date         Impact                 Report Results
Internal Controls   NO-AR-07-008         August 24,       N/A       Internal controls ensuring the
Over Operation                             2007                     accuracy of clock rings were in place
Clock Rings at                                                      and generally effective. However,
the Margaret L.                                                     based on our statistical sample of
Sellers                                                             220 employees, 7 percent were
Processing and                                                      clocked into the incorrect operation
Distribution                                                        which could result in management
Center                                                              making incorrect decisions about
                                                                    resource allocations and the
                                                                    productivity of individual operations.
                                                                    In addition, management could
                                                                    improve internal controls over
                                                                    timecard security.
Audit of            IS-AR-07-016         August 20,       N/A       The Postal Service needs to
Database                                   2007                     strengthen controls and processes
Administration                                                      surrounding access controls,
Practices                                                           segregation of duties and database
                                                                    administration. Specifically,
                                                                    improvements are needed for
                                                                    controlling developers’ access to
                                                                    production databases and for
                                                                    managing user accounts.




                                                      9
                                           Restricted information
Application Control Review of the Time                                                              IS-AR-08-014
 and Attendance Collection System


                               APPENDIX B: DETAILED ANALYSIS

Electronic Badge Reader Creation Software and Printer

System queries or reports often displayed or printed confidential SSN data. xxxx
xxxxxxxx xxxxxxx xxx xxx xxxxxxxx xxxxxxx, xxxxx xxxxxxx xxx xxxxxx xxxxxxxx
xxxxxx, xxxx xxx xxx xx xxx xxxxxxx xxxxx xx xxxxxxxxxxx xxxxxxxxx. xxxx xxxxxxxxxx
xx xxxxxxx xx xxx xxxxxxxx xxxxx xx xxx xxxxxxx xxxx xx xxx xxxxx.16 Employees
swipe their badges at EBR stations and generate clock rings. These clock rings are
written to the TACS database and made available to the TACS application. xxxx xxx
xxxx xxxxxxxx xx xxxxx xxxxxxxxxxxx xxxx xxxxxxxxx xxxx xxxx, xxxx xx xxxxxxx.
Postal Service policy17 states sensitive information must be protected from unauthorized
access and disclosure, restricting access to authorized personnel having a need to
know. The elimination of this confidential data from the EBR program will prevent
unauthorized personnel from viewing it in TACS reports.18

During the course of our audit, the Postal Service began eliminating the presentation of
sensitive data. x xxxxxx xx xxx xxx xxxxxxxx xxxxxxxx xxxxxxx xxx xxx xxxxxxxxx
xxxxxxxxxxx xx xx xxxxxxxx xx xxxxx xxxx.

Privileged Database Accounts

xxxxxxxxx xxx xxxx xxxxxxxxx xxxxxxx xxx xxxxxxxxxx xxxxxxx xxxx x xxxxxx xxxxxxxx
xxxxxxxx19 xx xxxx xxxxxx xx xxxx xxxxxxxxxxx xxxxxxxxx xxx xxxx xxxxxxx. XXXX
operates 7 days a week, 24 hours a day, and some changes may need to be made
during off hours when the primary DBA is not available. These changes result from
change requests that are tracked in the remedy system. XXXX personnel receive the
remedy ticket and tested scripts from the developers and incorporate the changes into
the application database using the shared privilege account and password.

These practices do not comply with Postal Service policy. xxxxx xxx xxxx xxx xxx xxxx
xxxxxxx xxx xxxxxxxx, xxxxx xx xx xxxxxxxxxxxxxx xxxxxx xxxxx xx xxxxxxxx xx xx xxx
xxxxxxxx xxxxx xxxxxxx. xxxxxx xxxxxxx xxxxxx20 xxxxxx xxxx xxxxxxxxxx xxxxxxxx
xxxxxx xx xxxxxxxxxx xx xxxxxxxxx xxxxx xxxxxx xxxxxxx xxxxxxxxxx xxxxxxxxxx;
xxxxxxxx xx xxxxxx xxxxxxxxxxx; xxxxxxxxxx xxx xxx xx xxxxxxxxxx xxx xxx xxxxxxxxx
xxxxxxxx xx xxx xxxxxxxxxx xxxxxxx; xxx xxxxxxxx xx xx xxxxx xxxxx. Also, policy21
states that passwords for privileged accounts must be changed at least every 30 days
and as quickly as possible upon departure of a system or DBA to maintain the security
and integrity of the system.

16
   xxx xxxxxxxx xxxxx xxxxxxxx xxx xxxxxxxx xxxxx xx (xxxxxxxxx xxxxx, xxxxxxxxx xxxx, xxx xxxxx xxxx xxx xxxxx
xxxxxxxx xxxxxx xxxxxxxxxxxxxxx.
17
   xxx xxxxxxxx x.
18
   xxx xxxxx xxxxxxxxxxx xxxxxx xxx xxx xxxx xxxxx xxxxxx xxx xxxxxxxx xx xxxxxxx xxxx xxxxxxx xxxx.
19
   xxxxxxxxx xxx xxxxxxxxxx xxxxxxx xxxxxxxx xx xxxx xxxxxxx xxxxxxxxxxxxx xxxxx x xxxxx.
20
   Handbook AS-805, Section 9-5.3.2.
21
   Handbook AS-805, Section 9-7.1.6 and 6-7.3.

                                                       10
                                             Restricted information
Application Control Review of the Time                                                IS-AR-08-014
 and Attendance Collection System



Encryption of Sensitive Information

xxxx xxxxxxxxxxxx xxx xxxxxxxxx xxxx xxxx xx xxxxxxxxx xxxxxx xx xxxxx xxxx
xxxxxxxxx. xxx xxxxxxx, xxxx xxxxxx xxxxxxxx xxxx xx xxx xxxxxxxx xxx xxxxxxxx
xxxxxxxxxxxxxx. xxxxxx xxxxxxx xxxxxx22 xxxxxx xxxxxxxxxxx xx xxx xxxxxxx xxxxx
xxx xxxxxxxxx xxxxxxxxxxxxxxx xxxxxxxx xxx xxxxxxxxxxx xxxx xxx xx xxxxxx xx xxxx
xxxxxxxxx-xxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx xxxx xxxx xxx xxxxxxxxxx xx xxxxxxx
xxxxxxxxx xxxxxx xxxxx xxxxx xx, xxxx, xxxxxx xxxx xxxx xxxxxxxxxx xxxxxx xxxxxxxx
xxxxxxxxxx xxx xxxxxxxx xxxx xxxx xxxxxxxxxxx xxxxxxx xxxx xx xxxxxxxxxxx.

xx xxx xxxx xx xxxx xxxxxxxxxxxxxx, xxx xxxxxxx xxxxxxxx xxxxxxx xxxx xxx xxx xxxx
xxxx xxxxxxx xxxxxxxx xxxx xxxxxx xxx xxxxxxxxxx xxx xxx xxx xxxxxxx xxxx xx
xxxxxxxxxx xxxxx xxx xxxxxxxxxxx xxx xxxxx xxxxxx xxxxxx xxx “xxxxxxx xxxxxxx.”

Time and Attendance Collection System Testing Environment

The QA testing environment does not mirror production. Specifically, there are program
version and processing differences with infrastructure. The QA testing environment
does not currently have an EBR to test changes before implementing them into
production. Changes to the TACS application are tested using data manually input to a
TACS application module whereas the majority of data in TACS is captured via EBR.

Best practices promoted by the Information Systems Audit and Control Association
recommend ensuring that test environments are representative of the production
operating environment and changes to the production environment be replicated in the
test environment.23 Postal Service policy states:

        …the testing environment must be representative of the operating
        landscape, including likely workload stress, operating system, technology
        solution software, database management systems, and network/
        computing infrastructure found in the production environment. As the
        production environment changes, the test environment must also change
        to stay in synchronization.24

Access to Production Database

xxxxx xxxxxx xxxxxxx xxxx xxxxxxxxxx xxx xxxx xx xxxxxxxx, xxxx-xxxx xxxxxxx xx xxx
xxxx xxxxxxxxx xxx x xxxxxxxx xxxx xxxxxxx, xxxxx xxxxxxx xxxx,xxxxxx,xxxxxxx, xxx
xxxxxx xxxxxxxxxx xx xxx xxxx xxxxxxxx xxxxxxxxxxx xxxxx. xxxxxx xxxxxxx xxxxxx25
xxxxxx xxxx xxxxxxxxxx xxxx xxx xxxx xxxxxx xx xxxxxxxxxx xxxxxxxxxxx xxxxxxx.
xxxxxxx, xx xxxxxxxxx xxxxxx xx xxxxxxxxxx xxxxxxxxxxx xx xxxxxxxxx, xx xxxx xx
22
   Handbook AS-805, Sections 9-8.2 and 3-5.5.2.
23
   Information Systems Audit and Control Association, COBIT AI7.4 Test Environment.
24
   U.S. Postal Service’s Development and Operations Security Policy, Section 5.
25
   Handbook AS-805, Services, Section 8-3.

                                                      11
                                            Restricted information
Application Control Review of the Time                                                                        IS-AR-08-014
 and Attendance Collection System


xxxxxxxxxx xx xxxxxxx xx xxxxxxxxx xxxxxxxx, xxx xxxxxx xxxx xx xxxxxxxxx, xxx xxxxx
xxxxxxx xxxx xx xxxxxx xx xxx xxx xxxxxxxxx xxx xxxxxxxx xxxxxxxxxxxx.26 xxxxxx
xxxx xxxxxxxx xxx xxxxxxxx xxxx xxxxxxxx xxxxxx xxx xxxxxxxxx xx xxxx xxxxxxxxx
xxxxxxxxxxxxx xxxxxx, xxxxx xxxxx xxxx, xxxxx, xxxxxx, xxx xxxxxx xxxxxxxxxx xx xxx
xxxxxxxx (xxx xxxx xxxxxxxxxxx) xxxxx.27 xxx xxxxxxx,xxxxx xxxxxxx xxxxxxxxxx xx
xxxxxxxxxxx xxxxxx xxxx xxxxxxx xx xxxxxxxxxx xxxxxxxxx xxxxxxxxx xx xxxxxxxxxx
xxxxxxxx. xxxxxxxx xxxxxxxxxx xx xxxx xxxx xxxxxx xxxx xxxxxxxxxxxx xxx xxxxxxxxx
xxxx xx xxxx xx xxxxxxxxxxxx xxxxxxxxx, xxxxxxxxxxxxx, xxx xxxxxxxxx,xxxx xxxx xxx
xxxxxxxxxxxx xxxxx xxxxxx xxxxxxxxx xxx xxxxxxxxxx xx xxxxxx xxxx xxxxxxxxx.

During the course of our audit, the Postal Service implemented changes to ensure
developers only have read-only access to production databases for application support.
All access capabilities granting write, update and delete privileges were removed.




26
   Based on Handbook AS-805, Section 3-3.1, sensitivity determines the need to protect the confidentiality and
integrity of the information. The three levels of sensitivity are (1) sensitive, (2) business-controlled sensitive, and (3)
non-sensitive. Criticality reflects the need for continuous availability of the information. The three levels of criticality
are (1) critical, (2) business-controlled critical, and (3) non-critical.
27
   xx xxxxxxxx xx xxx xxxxxx xxxxxxxxxxxx, xxxxxxxx xxxxxxxxxx xxxxxxxxx, xxxxx xxxxxx xx, xxxx, xxxxxxxxxxxxxx
xxxxxxx xxxx xxxxxxxxx xxxxxx xx xxx xxxxxxxx xx xxxxxxx xxxxx xx xxx xxxx xxx xxxxxxxx xxxxxxxxxxx. x xxxxxx
xxxxxx xxxx xxxxxxxxx xx xxxxxxx xxx,xxxxxx xx xxxx xxxxxx, x xxx xxxx xxxxxx x xxxxxxxxxxx xxxxxxx xxx xxxxx
xxxxx xxxxxxxx xxx x xxxx. xxxxxxxxxx xx xxx x xxxx, xxx xxxxxxxxxxx xxxxxxx xxxx xxxxx xx xxxxxx xxx xxxx xxxx
xxxx xx xxxxxx xxxxxxx xxxxxx xxxxxx xx xxxxxxxx xxx xxxx xx xxx xxxxxxxxx. xxxxxxxxx xxxxx xxxxxxxx xxxxxx
xxxx xx xxxxx xxxxxx xx xxx xxxxxxxx xxx xxxxxxxxxx xxxxxx xxxxxxxxxxxxxxxxxx xxx xxx xxxx xxxxxxxxxx xxxxxxxx
xxx xxxxxxxxxx.

                                                           12
                                                 Restricted information
Application Control Review of the Time                            IS-AR-08-014
 and Attendance Collection System


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                   13
                                         Restricted information
Application Control Review of the Time                            IS-AR-08-014
 and Attendance Collection System




                                                   14
                                         Restricted information
Application Control Review of the Time                            IS-AR-08-014
 and Attendance Collection System




                                                   15
                                         Restricted information
